U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 20, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Derick Donovan Roberts v. Garland, No. 20-161
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 2,
2021. The government’s response is now due, after one extension, on October 4, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 3, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0161
ROBERTS, DERICK DONOVAN
MERRICK B. GARLAND, ATTORNEY GENERAL

ROHMAD A. JAVED
PRISONERS' LEGAL SERVICES OF NEW YORK
41 STATE STREET
SUITE M112
ALBANY, NE 12207
E. JOSHUA ROSENKRANZ
ORRICK,HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK , NY 10019
212-506-5000
JROSENKRANZ@ORRICK.COM
ERIC M. SHUMSKY
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005

